 Department              of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




PART B SERVICES IN NURSING                                               HOMES
          - An Overview -




                             @ SE RVICF$
                       ~-+                 ~$q
                   +

              ~w                                 JUNE GIBBS BROWN
              ;	
              w                                  Inspector     General
              %
               % #
                %++,                                   MARCH 1996
                  ‘%d~o
                   >                                  OEI-06-92-O0865
                        OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the Oftlce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intend~ to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S OffIce of Investigations (01) conducts criminal, civil, and administrative investigations

of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment

by providers. The investigative efforts of 01 lead to criminal convictions, administrative

sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.


                 OFFICE OF EVALUATION                  AND INSPECTIONS

The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Dallas Staff                                                           Central OffIce

Leah Bostick                                                           Jennifer Antico
Kevin Golladay                                                         Brian Ritchie
Sarah Taylor                                                           Barbara Tedesco
Clark Thomas

For further information contact: Kevin GoIladay at 214/767-3310 or 1/800-848-8%0.
 Department     of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




PART B SERVICES IN NURSING                        HOMES
          - An Overview ­




                  smc&~.&
                4%
              **4
              ~             JUNE GIBBS BROWN
              -J            Inspector General
              s
              % ~

                %+              MARCH 1996
                 %&xa
                  >            OEI-06-92-O0865

                     EXECUTIVE                      SUMMARY

PURPOSE

To describe the Medicare Part B services provided to nursing home residents and to identify
and discuss known or potential program vulnerabilities.

BACKGROUND

Medicare Part B covers a wide range of medical services and supplies for the program’s
beneficiaries, including those in nursing homes. These services include physician services
and outpatient hospital services, diagnostic laboratory tests, imaging, ambulance services, and
a wide range of medical equipment and supplies.

We obtained information about Part B expenditures from a 1992 nationally protectable sample
of nursing home residents from 10 States and 150 nursing homes. This includes residents
receiving Medicare extended care benefits in a skilled nursing facility (SNF), residents paying
for their stay with private insurance or personal fi.mds,residents on Medicaid, or a
combination of the above.

This inspection was conducted as a part of Operation Restore Trust. The initiative, focused in
five States, involves multi-disciplinary teams of Federal and State personnel seeking to reduce
fraud, waste, and abuse in nursing homes and home health agencies, and by durable medical
equipment suppliers.

FINDINGS

Medicare was charged $4.1 billion and Medicare payments of $2.7 billion were made in
1992 for Part B services provided to nursing home residents.

�	     The most money was spent on physician evaluation services ($894 million), followed
       by medical equipment, supplies, prosthetics, and orthotics ($772 million).

�	     More nursing home residents received a physician evaluation service (82 percent of
       residents) than any other service, followed by laboratory tests (66 percent of residents)
       and x-rays (47 percent of residents).

The Part B average daily charge varies signl~cantly    among both States and nursing homes.

�	     The State average daily charge ranged from an estimated high of $10.88 in Louisiana
       to a low of $4.42 in Maine. (The estimated national average was $8.75 per day.)

       Differences between nursing home average daily charges ranged from a low of $1.16
       to a high of $49.67. These are sometimes, but not always, explained by differences in
       the acuity level of the residents treated in the facility.


                                                i
 The accessibili~ and vulnerability   of nursing home residents provide a unique opportunity
forfraud, waste, and abuse.

The Medicare Part B program is particularly vulnerable because payment rules and safeguards
largely ignore the unique character of the nursing home environment and the varied services
and supplies which can be provided. Program Vulnerabilities identified include:

�	
        Dudicate Payments: Considered the payer of last resort, it is appropriate for Medicaid
        agencies to require that providers bill Medicare first for Part B covered services
        provided to dually eligible nursing home residents. Medicaid pays only for services
        not covered by Medicare. This overlapping responsibility creates a vulnerability
        whereby both Medicare and Medicaid could mistakenly pay for the same service or
        supply when each is unaware the other has paid. To determine the consequences of
        this vulnerability the OIG is currently conducting an evaluation of duplicate payments.

        Additionally, the shilling of payment responsibility from one program to another can
        increase overall costs to the taxpayer when the program paying for the service allows
        reimbursement at a greater rate than would ordinarily be paid by the other program.

�	      Lack of Oversight: Medicare Part B contractors (carriers and intermediaries) often
        lack enough information to adequately ensure appropriate payments for residents of
        nursing homes. For example, carriers generally do not have information that a resident
        is in a nursing home unless the claim specifically notes the place of service was a
        nursing home.

�	      Ouest ionable Sumiier or Phvsician Practices: We have previously documented
        questionable billing and marketing practices in the provision of incontinence supplies,
        wound care, and orthotic body jackets to patients in nursing homes. In addition to
        suppliers, physicians and other practitioners warrant fiuther review for such practices
        as billing for questionably high numbers of residents on the same day.

CONCLUSION

This review of the utilization of Part B services by nursing home residents suggests the need
for further work in many areas such as: 1) examining the appropriateness of consolidated
billing of Part B nursing home expenses and the daily rate, 2) monitoring trends in Part B
payment utilization over time, 3) evaluating issues of poor quality care resulting from such
practices as physicians treating too many patients in one day, exposure to excessive or
inappropriate medical services, provision of supplies not medically necessary, etc., and 4)
developing and applying various fraud detection methods to identi~ abusive practices and
fraud involving residents of nursing homes.

To support the development of fraud detection methods, iiwt.her information is currently
being gathered on the mture and magnitude of abusive provider practices or program




                                                ii
vulnerabilities involving nursing home residents.   This information will be used to identify
the most efficient fraud detection methods.

COMMENTS

We thank the Health Care Financing Administration (HCFA) and the Assistant Secretary for

Planning and Evaluation (ASPE) for their comments on the draft report. Changes were

made based on their suggestions. In addition to suggestions, the HCFA pointed out several

actions it has taken to address vulnerabilities such as: 1) requiring carriers and

intermediaries to selectively initiate pre-pay reviews on high dollar payment areas and

aberrant trends, and 2) development of enhanced duplicate payment detection methodologies

for the Medicare Transaction System. The full text of HCFA and ASPE comments are

provided in Appendix B.





                                              ...
                                              111
                                 TABLE                     OF CONTENTS
                                                                                                                                          Page
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


UTILIZATION OF PART B BY NURSING HOME RESIDENTS . . . . . . . . . . . . . . . . . . . 7


PROGRAM VULNERABILITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..14


          Duplicate Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14

          Nursing Home Differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...16

          LackofOversight    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17

          Abusive Supplier and Physician Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .22


ENDNOTES             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...25


APPENDICES

          ProcedureCode ClassificationandBed                           Day Cost . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          Agency Comments. . . . . . . . . .                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


GLOSSARY OF TERMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Glossary-1




                                                                      iv
                              INTRODUCTION

PURPOSE

To describe the Medicare Supplementary Medical Insurance program (Part B) services
provided to nursing home residents and to identi~ and discuss known or potential program
vulnerabilities.

BACKGROUND

With the aging of the American population, long-term care is becoming an increasingly
important component of the U.S. health care system. Since 1966, the proportion of those over
age 65 residing in nursing homes has risen from 2.5°/0to over 5°/0.1 Both the Medicare md the
Medicaid programs contribute significantly to this population’s cost of care.

Medicare Program

Medicare is a Federal health insurance program, authorized by Title XVIII of the Social
Security Act, that covers most people 65 years or older, people with end-stage renal disease,
and some disabled people. The program consists of two distinct insurance prograrns.2
Hospital Insurance Benefits for the Aged and Disabled (Part A) covers services fi.umishedby
hospitals, home health agencies (HHA), hospices, and skilled nursing-facilities (SNFS).
Supplementary Medical Insurance for the Aged and Disabled (Part B) covers a wide range of
medical services and supplies, including physician services, outpatient hospital services, and
home health services (not covered under Part A), as well as diagnostic laboratory tests, X-
rays, ambulance services, and the purchase and rental of durable medical equipment (DME).

While Medicare does not cover the institutional costs for traditional long-term nursing home
care, benefits are provided for extended care to qualified beneficiaries in a Medicare-
participating SNF. A certified SNF is a nursing home with the staff and equipment to provide
skilled nursing care, skilled rehabilitation services, and other related services, and that meets
the conditions of Medicare participation specified by regulations.3

Medicaid Program

The Medicaid program, enacted by Congress under Title XIX of the Social Security Act,
provides medical assistance to certain low-income families with dependent children and low-
income persons who are aged, blind, or disabled. State Medicaid programs must offer certain
basic services, including inpatient and outpatient hospital, physician, nursing home, and home
health services.

Historically, the Medicaid program recognized two levels of long-term care: 1) that care
provided at an intermediate level in an Intermediate Care Facility (ICF) and 2) that care
provided at a skilled level in a Skilled Nursing Facility (SNF). (~edicare has ahuays recognized



                                                1

m’y me kvel - SNF kvel care) However, the administrative distinctions between SNFS and ICFS
do not, in practice, indicate marked differences in the residents serviced. Further, in many
cases, the regulatory distinction between SNF and ICF simply reflected differences in nursing
staff.4

In recognition of this, Congress enacted the Omnibus Budget Reconciliation Act of 1987
(OBRA) to eliminate the distinction by combining SNF and ICF levels of service into a single
level (called nursing facility services (NF)). States were also required to recognize only the
nursing home level of care for purposes of Medicaid certification. Additionally, OBRA 1987
required all facilities to assess residents’ needs and to provide those services and activities
necessary to attain or maintain the “highest practicable level” of fimctioning (physical, mental,
and psychosocial well-being) for each resident.5

Although the Federal government finances between 50 and 83 percent of care provided under
the Medicaid program, individual States administer Medicaid within broad Federal
requirements and guidelines.c Medicaid covers Medicare beneficiaries who meet the limited
income and assets standards set by each State’s Medicaid program. These beneficiaries are
know as dual eligibles. For these persons, State Medicaid programs usually pay the
Medicare premiums and cost-sharing (coinsurance) requirements.

Many residents enter the nursing home with assets that are utilized to pay for nursing home
care. The process of resource depletion to pay for care is called “asset spend-down” and, once
impoverished, the resident typically applies for public assistance through Medicaid. Even
after all assets are depleted, a person is likely to pay a portion of nursing home expenses with
private monthly income, while Medicaid pays the difference.

Nursing Home Capacity and Resident Characteristics

The number of licensed nursing homes in the United States totaled 16,751 in 1992. Seven
States (Californi~ Illinois, Montan~ New York, Ohio, Pennsylvania, and Texas) accounted
for nearly 39 percent of the total nursing home bed capacity. By June of 1995, the number of
facilities had increased to 17,022, with over 1.8 million licensed nursing home beds. The
average number of beds per nursing home grew from 93 beds in 1980 to 102 beds in 1992,
while the total number of licensed nursing home beds per 1,000 persons age 65 and over
stayed nearly stable at 53.

In 1987, about three-quarters of all nursing home residents were women. Over 90 percent
were white and over 65 years of age with a median age of 82. Over half of all nursing home
residents in 1987 needed assistance with more than three activities of daily living (ADLs),
such as dressing or bathing. Many of these residents are likely to also have std%eredsome
form of cognitive impairment. Only 11 percent had no ADL limitations.

Most nursing home stays are relatively short. Of those residents discharged in 1985, about 52
percent stayed for less than three months, and 63 percent stayed for less than six months. Of
the discharged residents, about 50 percent had additional nursing home stays, with the
majority of those persons (77 percent) having additional stays in the same nursing home. Of



                                                2

all persons discharged from a nursing home in 1985, 48 percent were discharged to another
health facility, 30 percent were discharged to the community, and the remainder either died in
the nursing home or their outcome was unknown.

Program Vulnerabilities

Medicare is the nation’s largest payer of health care services, with 1992 costs of $128 billion.
Additionally, this represents the fourth largest category of Federal expenditures. Despite
attempts to constrain costs, Medicare spending and beneficiary out-of-pocket costs have risen
at troubling rates according to the Government Accounting Office (GAO).7 The growth of
these payments increases Medicare’s potential vulnerability to erroneous and excessive
payments, either for claims resulting from program weaknesses or for claims resulting from
provider fraud and abuse.

The accessibility and vulnerability of nursing home residents provide a unique opportunity for
fraud, waste, and abuse. Unless protected by concerned family or friends, the attending
physician, or by the policy and practices of the nursing home, the extended care resident may
be subjected to health care practices in which decisions on care can be governed by greed,
rather than medical need.

Program vulnerabilities are circumstances which may lead to excessive costs to the Medicare
program, the Medicare beneficiary, and, ultimately, the tax payer. Both fraud and abuse are
included in our definition of program vulnerabilities.

METHODOLOGY

Sources and Limitations of Data

Two principle sources of data were analyzed and are presented in this report. The primary
data source represents data obtained from a two-stage stratified sample in which 150 nursing
homes were selected for review from 10 States(15 nursing homes per State). Those States
were Californi~ Delaware, Florida, Indiana, Kansas, Louisiana, Maine, Michigan, Montan%
and Wyoming. Stratification was based on nursing home size (large, medium, and small).

Nursing home residents are dejined as anyone residing in a Medicare- or il4edicaid­
certi~ed nursing facility. This includes residents receiving Medicare extended care
benejits in a skilled nursing fmilily, residents paying for their stay wi%hprivate insurance
or personal finds, residents on Medicaid, or a combination of the above.

Each sample nursing home provided us with a list of all Medicare-eligible residents residing
in the facility during 1992, along with their corresponding dates of stay. After verification
of each beneficiary’s Health Insurance Claim Number (HICN) with the Medicare enrollment
database, all Medicare services provided during each nursing home stay were extracted from
the Medicare National Claims History File for calendar year 1992. The Part B services
processed by both the carrier and the intermediary were identified.




                                                3

Data from the sample were projected to the total nursing home population (residents in
Medicare or Medicaid-certified nursing homes). The estimates provided in this report are very
conservative. This is because many of the sampled nursing homes did not provide us with a
complete and accurate list of all residents in the nursing home during 1992. We estimate
under-reporting to be as much as 20 percent. (This percentage was determined by veri&ing
with the Health Care Financing Administration (HCFA) all SNF admissions to the sample
nursing homes that were not accurately or completely reported by nursing homes. Because we
were unable to determine the degree of under-reporting beyond just the Medicare SNF
population, we chose not to make adjustments to the projections. Consequently, data
projections should be viewed within this context.

The sample consists of 24,654 nursing home stays. Twenty percent of these stays involved
payment by Medicare Part A for SNF level care. The sample projects to nearly one-half
billion days of care during 2.6 million stays. The 150 nursing home sample projects to 15,356
nursing homes.


                              TWO TYPES OF PART B DATA USED

 1.	     Carrier-processed Part B data reflect the allowed churges unless otherwise noted.
         Allowed charges represent what Medicare considers reasonable for these services. The
         program pays 80 percent of the allowed charges, with beneficiaries responsible for
         coinsurance and deductibles.

 2.	     Intermediary-processed outpatient Part B data reflect interim churges by providers.
         This is because reimbursement is based on the application of reasonable costs, subject to
         certain limits which are reported through cost reports. Thus, these charges may not
         represent the final, settled cost to the Medicare program.

 Important   Note: In reviewing this report, the reader should recognize that two types of data are
 combined - data for claims processed by carriers and data for claims processed by intermediaries
 (outpatient). The data from carriers refer to those charges which Medicare considers reasonable
 (allowed charges) and to which coinsurance and deductiblesare applied. In contrast, the data for
 intermediary claims refer to total charges. Total charges (include both covered and noncovered
 charges) refer to all services for a billing period before reduction for the deductible and
 coinsurance amounts and before any adjustmentsfor the cost of services provided.

 Total charges for intermediary-processedclaims were used because they were readily available
 and could be broken out in suftlcient detail (e.g., at least at the revenue center level, and often at
 the procedure code level) allowing analysis of discrete types of services (supply, lab, etc.).


The second data source presented in this report was obtained from a one percent sample of all
Medicare beneficiaries ;eceiving Medicare-extended care benefits during 1991, 1992, or 1993.
After selecting the sample of beneficiaries, all Part B services received during the covered
nursing home stay were extracted, similar to the sample above. Data from the sample were
projected to the total SNF population by multiplying by 100. The 1991 to 1992 and 1992 to
1993 percent change calculations made in this report reflect an inflation adjustment factor
(7.4 and 5.9 percent, respectively), which is used to reflect more accurately the true percent
change due to charge variation rather than to medical care inflation. Although we are aware



                                                    4

of other adjustment (inflation) factors (e.g., HCFA’SMedicare Economic Index (MEI)), the
Medical component of the Consumer Price Index for all urban consumers, the U.S. city
average (CPI-U), appeared adequate for our use in this report in light of MEI’s limitations.
While MEI is specific to certain Medicare categories of services (such as physician services,
lab tests, etc.), it does not account for all categories of Medicare services.

The reader should recognize that the medical component of the CPI is not always a true
representation of the medical care cost changes in Medicare. This is because of various
constraints specific to Medicare (e.g., fee schedules, Congressionally-mandated reductions or
controls on the pricing of certain types of services, etc.) which do not exist in the general
medical community from which the CPI is derived.

Data Presentation Bv Categories

To facilitate the presentation of the types of Part B services provided, we classified HCFA
Common Procedure Coding System (HCPCS) procedure codes and revenue center codes
(used in outpatient facility cost reporting.) into one of many Part B categories. No procedure
or revenue center code is included in more than one category (except in the case of podiatry
services which were extracted based on the podiatry specialty code ‘48’). Where possible, we
tried to classifi services in terms of the law’s reference to coverage of the category.
Additionally, we modeled much of the major categorization afler a developmental
categorization system of HCPCS procedure codes prepared by HCFA’SOffice of Research and
Development in coordination with the Urban Im.titute. (See Appendix A.)

Vulnerabilities

Discussions of program vulnerabilities are drawn from our review of applicable law and
regulations and analysis of the services depicted in our sample. Additionally, we reviewed
findings from prior OIG reviews and fraud alerts for evidence illustrating program
vulnerabilities. Finally, we conducted a survey of each Medicare carrier to determine types of
abuses involving nursing homes. The survey was completed by the Medicare Fraud and
Abuse coordinator or director.

This review was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                               5

PREFACE

This repofiwas conducted asapafi of Operation Restore Tmst. The initiative, focused on
five States, involves multi-disciplinary teams of Federal and State personnel seeking to
reduce fraud, waste and abuse in nursing homes, home health agencies, and by durable
medical equipment suppliers.

This report gives the reader a sense of the utilization of Part B services by residents of nursing
homes certified by Medicare and/or Medicaid. Also, we point out areas of vulnerability for
consideration as fiture work by this and other State and Federal oftlces associated with
Operation Restore Trust.

Our discussion begins with a section describing Part B utilization statistics, and concludes
with a general discussion of the known or potential vulnerabilities suggested by the nursing
home sample, other work conducted by this ofllce, or based on carrier survey responses.

It is important for the reader to note that this report discusses the fill range of Part B services
provided to residents of nursing homes. Some of these services are billed only by certain
providers (e.g. nursing homes can not bill Part B for physician visits). On the other hand,
supplies and equipment used by a resident can be billed either by a supplier to Part B or by the
nursing home under its cost reporting as a Part A or Medicaid expense. Any discussions in
this report of inappropriate Part B payments apply only to certain categories of service and
should not be construed as applying to the full range of Part B services.

Further, this report discusses generally three types of Medicare eligible nursing home
residents: 1) residents receiving Medicare SNF benefits, 2) dual eligible residents with
Medicaid coverage, and 3) residents paying for their own stay. Each of these types of
residents might be impacted differently due to the application of limitations on Part B
payments. Thus, while billing Medicare Part B maybe deemed inappropriate for one group, it
may be appropriate, and even necess~, for another group.




                       For reference in reviewing this and retied reports, a
                  glossary of terms has been included in the back of this report.




                                                 6

    UTILIZATION  OF PART B BY NURSING
              HOME RESIDENTS

Medicare was charged $4.1 billion and Medicare payments of $2.7 billion were made in
1992 for Part B services provided to nursing home residents.

At the 95?40confidence level, we project Part B charges between $3.6 and $4.7 billion were
made in 1992 on behalf of residents during nursing home stays. We estimate payment to be
$2.7 billion. As discussed in the methodology, these are very conservative estimates due to
suspected under-reporting of the resident population by sampled nursing homes. Coinsurance
and deductibles for beneficiaries (Medicaid for dual eligibles) may exceed $1 billion of the
estimated Part B charges.

On a per day basis, Part B daily costs were approximately $8.75. This charge is composed of
$5.41 in carrier allowed charges and $3.34 in outpatient total charges. When considering only
charges for residents receiving Medicare extended care benefits in a skilled nursing facility,
this amount is considerably more at $20.

Part B represents a substantial (estimated nine percent) cost of the 1992 Federal and State cost
of care. (See Figure 1.)

                 I Part    B Provides an Estimated Nine Percent of Federal and State
                             Expenditures for Care to Nursing Home Residents


                          Medicaid     Nursing




                                                 m
                             “:;;’)n


                                                       ms:yii;:of
                                                             10%             $2.7    Billion)

                                                           Medicare     Part A
                                                       Extended     Care Benefits
                                                     In a Skilled Nursing Facility
                                                               ($3.1 Bllllon)

                     Source   Medicaid end Part A SNF etatktks  based on 1992 published HCFA data.
                        Part B esthiate based on the 1992 rrurshg home sample of 150 nurshg homes.

                                                    Figure 1

Medicaid is the largest payer of nursing home care with payments of $24 billion in 1992 for
over 1.6 million users. Medicare Part A extended care benefits in a skilled nursing facility
were $3.1 billion for 919,115 stays totaling 25.3 million days of care. (NOTE: Part A also
paid an estimated $60 million for hospice and $29 million for home health for nursing home
residents - based on the nursing home sample.). Since the Federal government pays 50 to 80
percent of Medicaid costs, this brings the total Federal institutional cost of nursing home care
to between $12 and $22 billion.



                                                        7

The most nwney was spent on physi.chm eviduution services ($894 million), followed by medkal
equipment, suppliks, prosthetics, and orthotim ($772 millwn).

The catego~ of evaluation services (used by 82 percent of residents) accounted for the most
charges of any categorical grouping, followed by the category of medical equipment, supplies,
prosthetics, and orthotics (used by only 27 percent of residents). (See Figure 2.) The top five
categories of service in the nursing home (adding these two categories with lab, rehabilitatio~ and
imaging services) accounted for over 75 percent of the total Part B charges provided to nursing
home residents.


                                          1992 Part B Charges by Category of Service
                                                                During a Nursing Home Stay

            MAJOR PART B CLASSIFICATION
                    CATEGORY         s!;                                                                       It
                                  Evaluation
                                                                                     ,                                         L
            Medkal EquiprnanL SUPplias,
              Prosthetics, and Orthotks


                   Lab and Other Tests


                  RehabMatbn        Therapy



                Irnaghg and Echography


                        Major and Minor
                     Medical Procadwes
                                                                                L



                                  Ambuknca                                     m$2

                          Dialysis Servkes
                                                                    $1o9                              g    Carrier      Processed       Part   B
                               and %I@SS       m               ,1
                                                                           J
                                                                                                      u    Outpatient       Part    B
                                                                                                                                                   )


                                                                                                                                        J
                     *Podiatrk       Sarvkas                   ‘s88                                                 95 Percent CoMderrce
                                               -y                                                     -                Interval

                  Mental Health Servkes        MA
                                                 -~


                                  Endoscopy    m         s5j
                                                    UI
                         Miscellaneous
                                               ~         s4i
                      Outpatient Part B
                                                    Ui

                                    Oncobgy     �        $3b
                                                    u!
                                       Other    ] $24          ~
                                                                                         -
                                               ‘O 100 200 300                                    400 500      600 700               800 900            1   lillion
     /’SLW7XR@gdbnatiaauveyoff
                      &7~tkvrraa



     ,
         wodsbb~il dlli9son
           Um Wagq
           hose pwedras
                                   mstwkaaqlo
                        of evakmfkm and m@Wrw
                             me     condded
                                                         rtedaLwh
                                                       pncadma
                                               by a PodiWst
                                                                               If
                                                                                    )              PART    B CHARGES         IN MILLIONS




                                                                                    Figure 2


                                                                                             8
More nursing home residents received aphysician evaluation service (82percent of
residents) than any other service, followed by laboratory tests (66 percent of resident@, and
x-rays (47percent of residents).

Most residents (89%) had Part B services billed during their nursing home stay. The most
likely service provided a nursing home resident was for a physician evaluation service
(nursing home or office visit) and laboratory tests. Residents with no Part B billing maybe
due to a short length of stay (less than one month) or a resident’s ineligibility for Medicare
Part B. For the residents receiving only Medicare extended care benefits in a skilled nursing
facility, approximately 18 percent of resident stays had no Part B services. This is
considerably more than the general nursing home population. This is probably because of the
short lengths of stay common among Medicare SNF residents (average 28.4 days) and the
greater services provided under the Medicare extended care benefit. In contrast to residents
with no Part B billing, some beneficiaries had extremely high average daily charges (some in
excess of $1,000 per day). Figure 3 compares the total nursing home population with the
Medicare SNF-only population and is based on the percent of residents with one or more
services during their nursing home stay.

                      During a Nursing Home Stay, Several Types of Part B Services
                                          Are Typically Provided

      MAJOR PART B CLASSIFICATION
              CATEGORY




                          Evabatbn


            Lab and Other Teata


         knaghg end Echography


      Madcal E@nan~     Sup@ear
        Prosthatka, and Orthotks

                                                                                        D	   Entire Nursing Home Population
         Major and M~ocM~~el
                                                                                             Only Stays Paid For by Medicare

                          Arrtniwe


           Rehab9tatbn      Therapy


          Mental Health Servkes             5.4+0           i
                                             3!             ;         :

                other                      <54
                                           6%:::;:;                                                                   ::;


              Arm91m8sh
                                                  ,         ,         !           ,      I          !         ,       !     I
                                      O        10          20        30        40      50       60          70       80     90   100%
          gTy&{
       VMm mrdHewhg       S6rvlces
                                                           Percent        of Stays    With   Part       B Charges


                                      hbk             &5p91wYoflsM!7rts       ls!l?lwpiwys7kiwd             li&Ju#stsJ!

                                          Sunx’        lvfd?ta msur@ofmnlR@mrnK             Wditahn
                                                       lw21nr?pm?Jtsalpb   ofhki2Vesw@$?lts


                                                                 Figure 3


                                                                              9
The average daily costfor Part B services d~fers markedly, depending on the category of
service and whether the average is based on all residents or only those who received the
particular service.

On average, the daily charge to Part B for a nursing home resident is estimated to be $8.75.

As discussed previously, evaluation services and medical equipment, supplies, prosthetics,

and orthotics have the highest cost. Correspondingly, these categories have the highest

average daily charge at $1.87 and $1.62, respectively. While few residents receive dialysis

services and oncology, they represent the most expensive categories of service when the

average cost is computed for only residents actually receiving these services.

(See Figure 4.)




                               Average    Part B Daily Charge
    $ Charges




      Source:   1992 nursing home sampie (pOint   estimates)


                                                  Figure   4




                                                     10        –

Average daily costs vary among States and, especially, among nursing homes.

The average daily Part B cost ranged from an estimated high of $10.88 in Louisiana to a low
of $4.42 in Maine. (See Figure 5.)



                             Average       Daily Charges                Vary By State

                1992   Estimated
            Average    Dally Charge
                       - iilo.80




                                                                                        Trust
                                                                           I

                 Source:    Projections   from   1992   nursing   home    sample.


                                                   F@we 5


While we cannot explain     these differences, we suspect that Medicaid practices regarding
billing of Part B for dual eligibles may explain some or most State differences. State
Medicaid daily reimbursement rates often differ in the services included in each State’s base
rate. For example, in 1992, only 35 States and the District of Columbia included physical
therapy, and 32 States and D.C. included occupational therapy. Only two States included
prescription drugs, and 11 States and D.C. included physician services in their daily SNF
rates.

One would expect higher Part B utilization in those States having less comprehensive base
rates (as is likely the case in Louisiana which excludes several types of service routinely
included in other States’ rates). However, if the State actively encourages nursing homes to
bill Medicare, regardless of what is included in the rate, differences should not exist due to
coverage.




                                                                  11

Significant State differences were noted in other areas not addressed in Medicaid rates. For
example, use of ambulance services during a nursing home stay varied from a high of 44
percent in Louisiana to a low of 13 percent in Wyoming. As another example, treatment by
podiatrists is estimated to be as high as 46 percent in Florida (average bed day cost equals
$0.28) to a low of 7 percent in Wyoming (average bed day cost equals $0.01).

In addition to State variances, there is considerable variation between nursing homes’ Part B
average daily charges. (See Figure 6.)



                           Part B Daily Charges Were Low in Most
                              Nursing Homes and High in a Few


                                                                            -$4.99
                    HIGH                                                             LOW
                              $10-$14.99




                                                     $5-$9.99

                                             Average       Daily   Charge
                                                   (sample estimate)
                Source:    1992   nursing   home     sample.



                                                   Figure 6


Based on regression analysis using SUDAAN’S Survey Data Analysis Software, we can
explain some of the variation (58 percent) in bed day costs between nursing homes.

       Factors increasing bed day cost include:	
       �       the extent to which the nursing home treats Medicare SNF residents,

       �       the degree of illness of the residents as evidenced by the number of hospital

               admissions during a stay, and
       �       the overall number of Medicaid residents in the nursing home.

       One factor decreasing bed day cost is the average length of stay for residents in the
       nursing home.

Several other factors were tested in the regression analysis and could not be proven to
significantly impact bed day cost. These included nursing home certification, profitlnonprofit
status, total bed size of nursing home, and percent of private pay residents.




                                                               12

While we do not have trend data for the general nursing home population, data based
solely on residents receiving Medicare extended care benejits in a skilled nursing facility
between 1991 and 1993 show that, while the overall cost of Part B has remained nearly
constant ($19-$20, in 1991 constant dollars), use of some services increased significantly.

Use of Part B by residents receiving Medicare extended care benefits in a SNF (and possibly
all other nursing home residents, Medicaid and private pay, for which we have no data to
confirm this trend) has remained relatively constant with little or no average bed day charge
change between 1991 and 1993, after adjusting for inflation using the CPI-U. However, this
finding does not tell the whole story. Notably, some types of service such as mental health
and imaging, have greatly increased, while others have decreased. (See Figure 7.)


                  1991 to 1993 Percent Change in the Average Part B Daily Charge for
                         Beneficiaries Receiving Extended Care Benefits in a SNF
                                                          ho adjustment                   for inflation included)

          Bed Day Charge        117%
          % Change 91-93

                  50% -----

                  40% ----                 ..37%
                                               ...................................................................................


                                                                   """""=%""" ""25%""""lg%'""" `""""""""""""""""""""""""`""'`""""""""""
                  20% - .

                   10%.--                                                                                                                               -------

                    o%

                                                 --             --             -------             ----          ----------

                                                 ------         --------       ------’             ------         ---...     --... ---~~%----?7%--

                                                                                                             .                    --------

                                                 ----           --------         .                ‘------        --------’        -“-”-””    ““””””’ ““”””””

                 -50% -                                                                                                                                    -53%
                                n                         l-l              n                  ..lii-                                                           ““”””””
                                 \P        OQ  ,e$                                             ~e                            &     s..    -a                .&
                                &        *                                 *O*                              ~~
                                                                                                                          #’     &       $*                2’
                               +0      4$*    @*                       *                  #
                                                                                         *+                              +$’   gQ >    .Q e               c#Qee
                           +           %                             #+                                                                     &#”          , b
                                                                                     #                              ‘t              ~ a’                $.O
                         +8                                                     e                                  &              ~~ *    ,&#’        &
                                                                                                             #                   &aQ     +           c)
                                                                                                            +$’              +

          Sourotx Based on a ona percent sample of residents receivhg Medicare Extended Care benefits h a SNF.


                                                                           F@.u-e 7

Within imaging, magnetic resonance imaging (MM) tests exhibited an exceptionally high
increase horn 1991 to 1993, with estimated total dollars increasing from one-half million to
nearly 10 million dollars in just two years. This may be explained by a shift from use of
computerized axial tomography (CAT) scans to MRI testing.




                                                                                     13
              PROGRAM                  VULNERABILITIES

The accessibility and vulnerability of nursing home residents provide a unique opportunity for
fraud, waste, and abuse. The Part B program is particularly vulnerable because payment rules
and safeguards largely ignore the unique character of the nursing home environment and the
varied services and supplies which can be provided. The following discussion presents some
of the most blatant program vulnerabilities suggested by the nursing home dat~ along with
abusive supplier and physician billing practices involving nursing home residents.

PROGRAM       PAYMENT OVERLAP

Medicaid and Medicare Part B

As the payer of last resort, Medicaid requires providers to bill routine services and supplies
to the Part Bprogram      This creates an opportunity for duplicate payments to occur when
Medicare and Medicaid mistakenly pay for the same service or supply.

�      Services Covered by Medicaid’s Daily Rate

Services covered under Medicaid’s nursing home daily rate are routinely billed to the Part B
program. In 1992, the cost of Medical Equipment, Supplies, Prosthetics, and Orthotics alone
were an estimated $772 million. Much of this equipment and supplies would have been
paid by the Medicaidprogrant    as apart of the nursing home’s daily payrrumt rate had the
resident not been eligible for Part B.

A program vulnerability exists because of the overlapping payment responsibilities of
Medicare and Medicaid when the Part B service is included in the Medicaid per diem rate, but
the established per diem rate is not adjusted to fully reflect Medicare reimbursement. If the
Medicaid rate-setting mechanism is based on only those costs the nursing home incurs, or will
incur, this will not result in duplicate or overlapping payments for the same service or item.
However, this is only applicable when billing occurs&to         either Part B or Medicaid (as a
cost in the facility’s cost report with no corresponding credit for Medicare payment), but not
~.     Billing both programs constitutes fraud and results in duplicate payments, if not
detected by either program. Extensive auditing is typically required to detect billing to both
Medicare and Medicaid, if the item or service is also included in the rate.

Medicaid is typically considered the payer of last resort. Thus, States consider Medicare Part
B as another third-party payer, expecting payment for the service or a letter of denial before
Medicaid assumes responsibility (e.g., Ohio’s administrative code 5101:3-1-05 states “the
department will not pay for any service payable by, but not billed to, Medicare”). However,
some coniision and blurring of responsibility exists regarding those items included in the
daily rate paid nursing homes. In most States, this includes such items as wheelchairs, beds,
bandages, enteral nutrients and infusion pumps, catheters, and sometimes physical therapy.




                                               14

States reported conflicting views on whether Medicare’s contribution to resident care by
covering Part B was, in fact, taken into account in their daily rate setting process. As one
State worker commented, “in theory, it should be; in reality, who knows?’ Interestingly,
nearly half of the States responded that their rate setting process did not consider payments by
Medicare unless paid directly to the nursing home and included as part of the cost reporting
mechanism. Thus, some question exists concerning possible overlap in billing. For example,
would the costs of an outside supplier, stocking a nursing home with routine supplies and
billing Medicare directly, be adequately addressed in setting the facility’s daily payment rate?
Additional study is needed to answer this question.

A few States reported that if a service is included in the nursing home per diem, Medicare
should ti be billed (e.g., Florida and Louisiana (sample states), Hawaii and Minnesota (not
in our 10 State sample)). However, we noted no significantly reduced Part B billing in Florida
or Louisiana versus other States, which could indicate a failure to enforce their own policy.
(Enforcement would be evidenced by the State actively denying payment of the Medicare
coinsurance for Part B services provided to dually-eligible nursing home residents.) A
Minnesota State ofilcial reported that, while the State does consider Medicare billing for items
covered under the Medicaid daily rate to be inappropriate, no “oversight is provided to ensure
this policy is adhered to.”

Even if the per diem adequately reflects Part B billing as a routine practice of the nursing
home, the Part B program maybe paying considerably more than necessary by not capitalizing
on the nursing home’s buying power. One example of this involves enteral nutrient products.
Our evaluation of enteral nutrients showed that many nursing homes can, or do, purchase
enteral nutrient products for their non-Medicare residents, at costs significantly lower than
those billed by outside suppliers to the Part B program. Given that several hundred million
dollars a year are spent on nutrient products in nursing homes, this represents a substantially
inflated cost to the taxpayer. More detail is provided on this subject in our report, Entera2
Nutrient Payments In Nursing Homes.

�      Services Not Covered by Medicaid’s Daily Rate

For services or supplies I@ included in the Medicaid daily rate, it is unlikely that both
Medicare and Medicaid would mistakenly pay for the same service or item. This conclusion
is based upon States’ assurances that a Medicare denial is required before Medicaid would pay
for any service or item known to be covered by Medicare. This inspection did not analyze
Medicaid data and, consequently, we were unable to determine the extent of any duplicate
payments. However, the OIG is beginning an inspection which will combine Medicare and
Medicaid data to determine if duplicate billing is occurring for residents in nursing homes.

Medicare Part A and Part B

Cost shifting can also occur between Medicare programs. As discussed in two previously
published reports, Medicare Services Provided to Residents of Skilled Nursing Facilities and
Medicare Payments for Nonprofessional Services in Skilled Nursing Facilities, SNFS are not
required to provide many types of services or supplies as a facility cost. The impact of this



                                               15

 policy is that nursing homes which shifl services to the Part B program (ofien called
 unbundling) may avoid Medicare’s SNF routine cost limits. If routine cost limits are avoided,
 this increases the cost to Medicare. By shifting costs above the routine cost limit, SNFS
 increase their profitability, while the taxpayer and SNF resident assume the cost of the amount
 Medicare allowed for the Part B services billed.

 One reason SNFS are able to shift costs to the Part B program is because section 1861(h) of
 the Social Security Act permits each facilitv to determine whether certain services are
 provided as extended care services. Consequently, the extended care facility is &!QQ
 determine for itself whether those services are covered by either the Part A program or the
 Part B program.

 SIZEABLE       DIFFERENCES          IN PART B UTILIZATION

 Sizeable variation exis~ from nursing home to nursing home in the average daily Part B
 charge and the percentage     of residents receiving Part B services.

 Nursing homes vary considerably in Part B use. Figure 8 shows some of the extremes from
 nursing home to nursing home. Shown is the nursing home with the highest percentage of
 resident stays with the indicated service compared to the nursing home with the lowest.

                                            Figure 8
                             Nursing Homes Can Vary Substantially
                                     In Their Use of Part B


                               California       II Delaware       II   Florida   II   Indiana   Louisiana         I




                             awwE
Selected Categories and
                                                                                                ‘/0 of Stays
         States                                                                                 with Service
                                                                                                ligh ILow I

Evaluation                                                                                      97%      I 46%    I


Imaging & Echography

Lab & Other Tests

Medical Equipment, etc.

Ambulance

Rehabilitation Therapy
                                36
                                  WE+3E
                               ‘:4i’- I   <11!661’113’191157!<1
                                                                                                78




                                                                                                    21
                                                                                                         I   30




                                                                                                              1

Mental Health                                                                                   +   11       <1

Podiatry                                                                                            59   I   <1
  Source: 1992 Nurshzg home sample (selectedStatesonly)




                                                        16

The average daily bed day charge also varies between nursing homes.

As discussed earlier, we can explain some of the variation (58 percent) in Part B utilization
among nursing homes. The primary determinant of Part B utilization is the type of resident
treated in the nursing home. The more ill the residents are, the greater their utilization of Part
B. Factors not proven to impact bed day cost are nursing home certification, profitinonprofit
status, total bed size of nursing home, and percent of private pay residents.

However, significant variation exists which is unexplained. While more knowledge about the
nursing home and residents treated could explain some of this variation, we suspect some
variation is the result of abusive or fraudulent billing activity. As an example, the number of
residents receiving medical equipment, supplies, orthotics or prosthetics in one Delaware
nursing home was 67 percent. In another nursing home, it was only nine percent.

LACK OF OVERSIGHT

Medicare Part B contractors (carriers and intermediaries) often lack enough information
to adequately ensure appropriate paymenti for residents of nursing homes.

�	      Contractors typically do not know if a beneficiary is in a nursing home, unless the
        place of service on the bill is coded correctly.

Accurate payment for some types of services are dependent upon knowing the place where the
beneficiary received the service. This knowledge is especially important for residents of
nursing homes. For example, if the person resides in a nursing home (generally, DME is not
covered in a nursing home) but a claim for a wheelchair is received with the place of service
incorrectly coded as “home,” it is likely the claim will be paid in error. This is because
contractors rely on the place of service coding by the supplier to alert them where the
beneficiary resided when the service was provided. Only in the case of the beneficiary
receiving Medicare extended care benefits in a skilled nursing facility does the Medicare
contractor receive notification of a SNF stay if the claim involves DME. However, with
heavy workloads, it is possible that carriers would overlook an alert (only rejects must be
reviewed by carriers prior to payment).

The impact of this vulnerability is to expose Medicare to millions of dollars in overpayments.
Our report, Durable Medical Equipment Payments in Nursing Homes, discusses our finding
that as much as $27 million may have been paid by Medicare to suppliers, even though the
beneficiary was residing in a nursing home on the date the durable medical equipment was
provided.




                                                 17

�	     Some States may restrict nursing homes from billing Part B for services or supplies
       included in the Medicaid per diem rate; however, Medicare contractors are oflen
       unaware of State policies.

While most States encourage or require providers to bill Medicare for any service covered by
Medicare (including services or supplies covered in the Medicaid per diem), at least five
States (Florida, Hawaii, Louisiana, Minnesota, and Nevada) reported to us that services and
supplies already included in the Medicaid rate, might not be billable to Medicare. In Florida,
alone, Part B charges for medical equipment, supplies, prosthetics and orthotics (much of
which is included in the rate and must be provided to Medicaid residents) maybe as high as
$25 million.

�	     Medicare contractors are unable to monitor trends and instances of duplicate payments
       between Medicare and Medicaid, because Medicaid data is not available to carriers.

Medicare Part B contractors currently lack nursing home stay information (admission and
discharge dates) for the long term care nursing home resident. Thus, no analysis can be done
cma routine basis to look for trends in payments by service which might indicate abusive
practices, either within facilities or across the nation. Additionally, Medicaid data is
unavailable to contractors to determine if duplicate payments are being made. Only Medicaid
is able to monitor duplicate payments based on information from the Part B coinsurance
payments it made for dually-eligible residents.

QUESTIONABLE        SUPPLIER AND PHYSICIAN            PRACTICES

Suppliers

�      Some suppliers may provide excessive volumes of supplies to nursing homes.

An area of potential abuse involves excessive volumes of supplies. As reported previously,
more money is paid by Medicare for the category of Medical Equipmen& Supplies,
Prosthetics, and Orthotics than any other major category of Part B services except Evaluation
Services. One example of excess involves incontinence supplies. Our recently published
reports on incontinence supplies (Questionable Medicare Payments for Incontinence Supplies
and Marketing of Incontinence Supplies) discuss how suppliers have overutilized and
misrepresented these supplies. For example, 30 percent of beneficiaries surveyed reported
that they do not utilize all of the incontinence supplies that are reimbursed by Medicare.
Additionally, many nursing homes do not track Medicare-reimbursed supplies to the specific
beneficiary for which they were billed. Thus, “Medicare and individual beneficiaries may be
paying month after month for unnecessary supplies which may be used for other patients.” In
some cases, supplies were delivered in bulk quantities (thus, not designated for any particular
resident). Some nursing homes stated they are turning away suppliers because their supply
rooms are already overstocked with unused supplies from previous shipments.

Another example of Medicare paying for supplies that are excessive involves routine billing
by suppliers each month. Routine billing becomes a problem when the resident no longer



                                               18

needs the supply; however, the supplies keep coming. The most blatant example of this found
in our nursing home sample involves billing for ostomy supplies even though the person no
longer was in the nursing home. Weeks before the billing, the resident had entered the
hospital and remained there for nearly a month. The billing was $1,000. This case has been
referred to the carrier for recovery.

�       Some suppliers bill for medically unnecessary supplies.

The area of wound care presents an example of not only excessive supplies, but of medically
unnecessary supplies. Our investigation of wound care products (e.g., tape, gauze, dressings,
etc.) used in nursing homes found that a substantial amount of these products provided to
nursing home residents are not used. In addition to being delivered in excessive quantities,
products were found to be medically unnecessary for some residents.

Another area of abuse involves air-fluidized beds which are not medically necessary when
used for preventive purposes only.

�      Still other suppliers bill for supplies or services never provided.

In addition to excessive and medically unnecessary supplies or services, some suppliers bill
for services or supplies never provided. One gross example found in our sample involved a
portable x-ray supplier. The patient purportedly received x-rays at a SNF during two
consecutive weeks, although the person was in the hospital during this time. Allowed charges
were over $500 for x-ray transport, setup, and service. This case has been referred for
investigation.

After researching the payment vulnerability resulting in this overpayment, it was found that
the system of edits in Medicare’s payment system (CWF) did not include any edits to suspend
payment of similar types of services and supplies (except for DME) while the person is known
to be in the hospital or any other inpatient setting.

Physicians

�	     The nursing home presents an opportunity to provide services to many different
       residents during a visit (sometimes called “Gang Visits”). With this opportunity
       comes the potential for abuse and poor quality care.

While seeing many residents in one day is not inherently bad, the volume of residents seen can
suggest a physician or supplier maybe billing for a level of care not provided. According to
HCFA ofllcials, 15 minutes per person is the suggested minimum time to spend reviewing a
resident’s condition and performing the appropriate visual inspection of the resident (we note
that HCFA has not defined filly what a visit should entail - length of time actually with the
resident, time reviewing chart, etc.). The average physician sees 20 or less patients per day.
Yet, some physicians billed for large numbers of residents for single day visits in several
nursing homes.




                                                19
To illustrate an extreme, one physician billed for more than 80 nursing home visits on the
same day. While this is possible, such an extreme suggests the physician did little more than
a paper review (at most). If the physician afforded each resident the desired 15 minutes, it
would have taken this physician over 20 hours to complete the billed visits (with no breaks).
Spending even half the time (7 ?4minutes), would require 10 hours, still an unlikely scenario.
Even under optimistic assumptions (the nursing home is in a remote area where a physician
must travel a long distance, medical charts are well-documented and assessments are
completed by the nursing staff prior to the physician’s visit, etc.), it is easily arguable that this
physician was not providing the expected level of care billed for each patient during his visit.

Podiatry services present another example of physician services that appear excessive in some
nursing homes. As previously shown in Figure 8, there is wide variation between nursing
homes regarding involvement of podiatrists. While nursing homes with little involvement of
a podiatrist may reflect a medical physician providing foot care, high podiatrist involvement
could indicate an abusive pattern of practice (non-covered routine foot care billed as a covered
service). It appears unreasonable that a podiatrist could see over 80 percent of a nursing
home’s resident population during a year (as occurred in 3 of 150 sampled nursing homes).
Further, it appears excessive for a podiatrist to treat high numbers of residents on the same
day (6 of 150 nursing homes had podiatrists treating 50 or more residents on the same day;
one podiatrist exceeded 65). Finally, we question the medical necessity of seeing the same
residents as frequently as every month.

�      A few primary care physicians provide the majority of routine care visits.

It appears, from the sampled nursing homes, that either many doctors are caring for very few
nursing home patients or a few doctors may be caring for too many patients. This raises
concerns about the quality and appropriateness of patient care. (Physicians caring for too few
nursing home residents may be ill-equipped to deal with the nursing home geriatric
population. Physicians seeing too many nursing home residents may not be giving enough
time to the care of a special needs population.)

Nursing home care is predicated on a medical model requiring direct physician leadership in
the overall management of a patient’s plan of care. Thus, the physician plays a pivotal role as
gatekeeper, determining and/or providing necessary medical care, equipment, and supplies
necessary for the patient’s well-being. However, since the beginning of Medicare and
Medicaid, physicians have been criticized for their perceived lack of involvement in the care
of nursing home residents.8

The OBRA 1987 strengthened the role of the medical director in the nursing home, and the
Resource-Based Relative Value Scale (RBRVS) abolished the rule that !owered
reimbursements for physicians who see multiple patients during nursing home visits. It also
raised reimbursement for the two most common types of nursing home visits. The intent was
to put nursing home visit rates on par with office visit rates (addressing a common complaint
of nursing home physicians). Our 1992 nursing home data was not recent enough to
determine if these events, coupled with more emphasis on geriatric training by some medical
schools, may be improving physician participation in the nursing home.



                                                 20

         A FEW EXAMPLES          OF PART B ABUSE NOTED BY CARRIERS
                         BASED ON SURU?3YOF FM UD ST@F

Physician and Practitioners

  Eye Exams - Physicians solicit services at nursing homes with eye exams billed as non-
                routine or problem focused exams while also using office visit service codes.
                Waiving beneficiary copayments.
  %5*         : Physician billed services provided by nursing staff with the physician not
                present.
  Foot Care - Podiatrists performing routine foot care (a noncovered item).
  Psychiatric - Excessive billing for evaluation testing under preadmission assessment and
                amual resident review (PASARR) regulations when not reasonable and

                necessary for diagnosis or treatment (e.g., annual screening required by for

                Medicaid residents as part of certification process and compensated by

                Medicaid as part of the daily rate).

                Individual or group therapies not medically necessary or being perfomned by

                inappropriate &pe; of providers, not psychiatrists or community mental health

                clinics .


Outpatient Rehabilitation Therapy

               - Excessive charges.
                 Therapist billing for services that the nursing home staff performs.
                 Using one provider number for services to many different nursing homes
                 giving the impression all residents are in the same facility.
               - Providing medically unnecessary services.

Supplies and Equipment

                  Excessive and medically unnecessary billings for incontinence supplies,

                  ostomy, and surgical dressings. Also, noted were billing for air-fluidized

                  beds used for preventive services (not covered by Medicare) and nebulizers

                  (including nebulizer drugs).

                  Providing medically unnecessaryorthotics and prosthetics (e.g., body jackets).

                  Misrepresentingsupplies and equipment( e.g., Iymphedemapumps have been

                  offered to nursing home residents free of charge on a trial basis; however, the

                  supplier bills Medicare).

                  Billing for items not covered in a nursing home (e.g., wheelchair).


Laboratory Services

                  Billing for placement of glucose monitors, collection of specimens from and
                  mileage to the nursing home when not medically necessary or technicians
                  providing services for equipment designed for home use by nonprofessionals.




                                               21

                               CONCLUSIONS


Significant payments are being made for Part B services, in addition to institutional payments
to the nursing homes directly paid by Medicaid and the Medicare SNF benefit. Consequently,
more closely monitoring services provided under these benefits and addressing vulnerabilities
are important, particularly given Medicare’s potential exposure to abusive practices.

This review of utilization of Part B services by nursing home residents suggests the need for
further work in, at least, the following areas:

Bundling Payments

This includes examining the appropriateness of consolidated billing of Part B nursing home
expenses and the daily rate paid by Medicare Part A or Medicaid. The Office of Inspector
General (OIG) will be doing additional work on both the concept of bundling (consolidated
billing) and the vulnerability posed by potential duplicate billings.

Monitoring   Trends

This includes monitoring Part B utilization over time, with focused review of services
experiencing rapid growth (e.g., mental health, magnetic resonance imaging) without any
known reason (e.g., coverage change). We plan additional work on a number of such areas.

Quality of Care

This includes detecting poor quality care resulting from such practices as physicians treating
too many patients in one day (e.g., podiatrists), exposure to excessive or inappropriate medical
services, provision of supplies not medically necessary, etc. Under Operation Restore Trust,
the HCFA is now experimenting with methods to involve State surveyors in such efforts,
which might prove fruitfi.d; the involvement of nursing home volunteer ombudsmen in such
efforts will also be tested as part of ORT.

Fraud Detection Measures

This includes developing and applying various fraud detection methods to identifi abusive
practices and fraud involving nursing homes. We plan to employ such methods in future work
under ORT.

For example, the nursing home bed day cost could be a valuable tool in identifying nursing
homes or providers with aberrant and, possibly, abusive practices. Although use of bed day
cost is a post review process, it requires a minimum of effort to identi~ and flag potentially
abusive providers or nursing homes. Depending on the likelihood of abuse underlying the
high average daily charge, the information could be provided to survey and certification staff
to be used during their next scheduled visit, to contractor fraud and abuse staff for



                                               22

investigation, or to others (long term care ombudsmen, OIG, State Health Departments,
Medicaid Fraud Control Units, etc.) for consideration and action.

Linking resident assessment data to billing history on services provided to residents maybe
used, both to identifj medically unnecessary services and to identify quality of care issues
(e.g., patient care needed but not provided). Facilities must conduct, initially and periodically,
a comprehensive, accurate, standardized, and reproducible assessment of each resident’s
functional capacity. The assessment must include the resident’s medical history, current
medical status, functional status, sensory and physical impairments, nutritional status and
requirements, special treatments and procedures, psychosocial status, discharge potential,
dental condition, activities potential, rehabilitation potential, cognitive status, and drug
therapy. The assessment must be performed within 14 days of admission. It must be repeated
yearly, as well as promptly afier any significant change in the resident’s condition.

In order to meet the requirement for a comprehensive assessment, the Minimum Data Set
(MDS) must be used. The information captured by MDS is available, or will be available in
the fbture, as an automated database. Thus, this information could be linked to billing history
data maintained in the National Claims History File or Common Working File (CWF). By
linking this data, one could test the appropriateness of service billing patterns against factual
assessment data about individual resident needs. For example, an analysis could be completed
of residents billed for enteral nutrients, despite the fact that current resident assessment data
shows no indication of any eating disorder, difficulty swallowing, etc. that would warrant tube
feedings. The reverse situation may also be reviewed (e.g., the assessment data indicates a
need for services that were not rendered).

Resident assessment data could be used to summarize a nursing home’s population based on
various medical indicators, allowing one to account for case mix differences between nursing
homes when assessing the significance of differences in bed day costs from one nursing home
to another.

The HCFA could also monitor the number of beneficiaries treated by particular providers on
the same day. As discussed previously, the potential exists for a provider to bill for an
unrealistically high number of residents on the same day. Determining the total number of
beneficiaries seen by a provider and comparing it to an average or specified standard can alert
the carrier to providers requiring closer scrutiny.

To support the development of fraud detection methods, further information is currently
being gathered on the nature and magnitude of abusive provider practices or program
vulnerabilities involving nursing home residents. This information will be used to identi~
the most efllcient fraud detections methods.




                                                23

AGENCY COMMENTS

We thank the Health Care Financing Administration (HCFA) and the Assistant Secretary for
Planning and Evaluation (ASPE) for their comments to the draft report. Changes were
made based on their suggestions. In addition to suggestions, the HCFA points out several
actions it has taken to address vulnerabilities such as: 1) requiring carriers and
intermediaries to selectively initiate pre-pay reviews on high dollar payment areas and
aberrant trends, and 2) development of enhanced duplicate payment detection methodologies
for the Medicare Transaction System. The full text of HCFA and ASPE comments are
provided in Appendix B.




                                           24

                                 ENDNOTES


1.	   Girwitz, J., Sanchez-Cross, M, and Eckler, M. The Epidemiology of Adverse and
      Unexpected Events in the Long-Term Care Setting. Journal of the American
      Geriatrics Society, 1994, (42) pages 33-38.

2.	   The Health Care Financing Administration (HCFA), within the Department of
      Health and Human Services (DHHS), administers Medicare and contracts with
      private insurance companies (e.g., Blue Cross or Blue Shield plans) to process and
      pay Hospital Insurance (Part A) and/or Part B claims. Contractors, called
      intermediaries, process claims from institutions such as hospitals and nursing homes;
      other contractors, called carriers, process claims from noninstitutional providers,
      such as physicians and suppliers. The HCFA provides direction to contractors on
      payment matters and is, ultimately, responsible for assuring a contractor’s adherence
      to applicable program policies and procedures.

3.	   Section 1819(a) of the Social Security Act defines a SNF as “an institution (or
      distinct part of an institution) which is primarily engaged in providing to residents 1)
      skilled nursing care and related services for residents who require medical or nursing
      care, or 2) rehabilitative services for the rehabilitation of injured, disabled, or sick
      persons. ” Also, a SNF is not providing care primarily for the care and treatment of
      mental diseases. This definition was formerly found in section 1861(j)(l) and is
      often referred to as the “j1” provision.

      Medicare-participating SNFS are paid their costs and receive interim amounts to pay
      estimated costs. Actual costs are settled later, with adjustments made if interim
      payments were too high or too low. Any costs determined to be in excess of those
      necessary for the eftlcient delivery of needed health services are excluded. The SNF
      services are divided between routine and ancillary services. Routine services include
      room, dietary, nursing services, medical social services, items which are reusable
      and expected to be available in a SNF (e.g., wheelchairs), and items which are
      finmished routinely to all patients. In contrast, ancillary services include laboratory,
      radiology, drugs, therapy, and other items and services for which charges are
      customarily made in addition to a routine per diem charge.

4.	   Institute of Medicine. Improving the Quality in Nursing Homes. Washington, DC.
      National Academy Press, 1986.

5.	   This assessment is completed using a comprehensive resident assessment instrument
      developed by HCFA called the Minimum Data Set (MDS). The MDS was
      implemented nationally in October of 1990 and serves as a basis for the development
      of major, uniform data collection systems for resident characteristics. A slightly
      modified version of the MDS, the Minimum Data Set Plus or MDX +, is seen as the
      cornerstone for the development and implementation of a Medicare Part A case mix
      system for setting reimbursement to nursing homes.



                                             25

6.	   Federal guidelines allow States discretion in establishing income and resource
      criteria for program eligibility; determining the amount, duration, and scope of
      covered services; and determining provider reimbursement methodologies. As a
      consequence, characteristics of State Medicaid programs vary considerably from
      State to State.

7.	   General Accounting OfIce. Improper Handling of Beneficiary Complaints of
      Provider Fraud and Abuse. GAOIHRD-92-1, released October 1991.

8	    Mitchell, JB. Physician Visits to Nursing Homes. Gerontologist, 1982, (22)
      pgs. 45-8.




                                           26

                                   APPENDIX                A
         PROJECTED         PARTB   CTL4RGES FOR NURSING HOME RESIDENTS



                                                                         Stays   Bed day Charge
                                                                 Stays Also With ---------------------
                                               Estimated 1992    VWth Medicare With Based on
Type of Service                                  Q.@ul!x        Service XF      Service AJl$jw


ALL SERl?7CES                                  $4,173,S84,532    89%      25%       $9.13    $8.75


EVALUATION                                       $893,831,089    82%      23%       $2.00    $1.87


    Office Visits                                 $72,074,385    22%      21%       $0.50   $0.15
    Hospital Visits                              $161,848,927    15%      30%       $1.98   $0.34
    Emergency Room Visits                         $55,554,187    16%      23%       $0.54   $0.12
    Home Visits                                    $2,098,658     1%      14%       $0.22   $0.00
    Specialist Evaluation                         $41,359,353    15%      17%       $0.38   $0.09
            �     Pathology                       $15,471,756     6%      20%       $0.37   $0.03
           �       Optharnolo@                    $18,302,744    10%      14%       $0.25   $0.04
                   Other                           $7,584,853     1%      49%       $2.48   $0.02
    Consultations                                 $99,912,011    22%      24%       $0.73   $0.21
    Nursing Home Visits                          $460,983,284    75%      23%       $1.10   $0.97

ANESTHESL4                                        $33,584,865     5%      26%       $1.01   $0.07
M4JORAiW       MUVORMWIOIL                       $320,949,774    30%      21%       $1.59   $0.67
PRWW~

    Major Procedures                              $92,050,701     4%      34%       $3.85   $0.19
    Eye Procedures                                $81,313,693     2%      11%       $6.37   $0.17
          �      Comeal Transplant                 $2,174,759     o%      15%       $8.75   $0.00
          �
                 ca@mctRmWWZemMWldOn              $56,565,162     1%      13%       $7.72   $0.12
          �      RetinalDetachment                   $496,023     o%       o%       $3.95   $0.00
                  Treatmentof RetinalLesions       $1,824,844     o%      13%       $2.48   $0.00
    Ambulatory Procedures                         $70,622,822     5%      28%       $1.97   $0.15
    Minor Procedures                              $76,962,558    25%      19%       $0.45   $0.16

ONCOLOGY                                          $35,899,068     1%      45%      $13.15    $0.08

ENDOSCOPY                                         $51,065,945     4%      25%       $1.99    $0.11

DIALYSIS SERVK’ES                                $108,757,165      1%     40%      $21.82    $0.23




                                                A-1

                                                                                Stays Bed day Charge
                                                                    Stays     Also With ---------------------
                                                  Estimated 1992     With     Medicare With Based on
Type of Service                                     ChiuzeS         -           =F     ~ervice AllStavs

IiM4GINGAND       ECHOGRAPHY                        $408,111,812        49%   25%        $1.47     $0.86

    Standard Imaging                                $302,404,985        47%   25%        $1.12    $0.63
           �    Chest                                $48,543,6.54       32%   24%        $0.27    $0.10
           �    llusculoskeletal                     $51,972,672        19%   26%        $0.44    $0.11
           �    Breast                                $2,442,160         1%    8%        $0.32    $0.01
           �    ContrastGastrohttesdnal              $94,095,987         9%   26%        $1.55    $0.20
                (G.I.)
           �    NuclearMedicine                       $9,737,123         2%   25%        $0.91    $0.02
           �    Other                                $12,229,717         7%   27%        $0.28    $0.03
           �    Transportand Setup of X-ray          $83,383,672        20%   21%        $0.69    $0.17
                   Equipment

    Advanced Imaging (Cat Scan or NIRI)              $71,223,773        6%    27%        $1.91    $0.15

    Echography                                       $27,389,120        6%    22%        $0.69    $0.06
           �    Abdomen&elvis                         $7,206,888        2%    20%        $0.44    $0.02
          �     Heart                                $11,545,122        2%    21%        $0.93    $0.02
          �      CarotidArterh?s                      $2,504,886        1%    20%        $0.52    $0.01
          �     Prostate, Transrectal                    $97,668        o%     o%        $0.50    $0.00
          �      Other                                $4,163,416        1%    36%        $0.73    $0.01
    Imaging Procedures                                $7,093,934        1%    29%        $1.83    $0.01
          �     Heart (cardiaccatheritization)
       $1,597,956        o%    34%        $8.35    $0.00
          �      Other
                               $5,495,977        1%    28%        $1.48    $0.01

LAB	 AND OTHER TESTS
                              $617,138,509         66%   22%        $1.59    $1.29

    Lab Tests                                      $561,483,308         65%   22%        $1.46    $1.18
           �      Routine Venipuneture
            $224,122,353         44%   19%        $0.81    $0.47
           �      Automated GeneralProfties
        $69,550,382         44%   22%        $0.26    $0.15
           �      Urinalysis
                       $11,457,955         29%   21%        $0.06    $0.02
           �       Blood Counts
                    $50,714,881         44%   22%        $0.19    $0.11
           �       Glucose
                          $7,038,917          6%   16%        $0.17    $0.01
           �       Bacterial Cultures
              $37,912,428         27%   24%        $0.23    $0.08
                   Other
                          $160,686,392         51%   23%        $0.53    $0.34
    Other ;ests                                     $39,190,232         14%   23%        $0.43    $0.08
           �       Electrocardiogram
               $14,201,057          9%   21%        $0.23    $0.03
           �       CardwvascularStress Test
           $386,827          o%   11%        $0.46    $0.00
           �       EKG Monitoring
                   $3,528,040          1%   16%        $0.72    $0.01
                   Other
                           $21,074,307          7%   25%        $0.51    $0.04
    Speci;en Collection                             $16,464,970         29%   18%        $0.09    $0.03




                                                  A-2

                                                                                Stays Bed day Charge
                                                                    Stays     Also With ---------------------
                                                  Estimated 1992     With     Medicare With Based on
Type of Service                                     G!l@@=          -           =F      Service AllStaH

ikUWC4L EQUi?P!,   SUl?P~,                          $772,228,643        27%    29%        $5.29     $1.62
PROSIHEITC$ AND 0R7HOZKS

    Durable ikledical Equipment                      $35,428,504        6?4    41%        $2.08    $0.07
          �       Hospital Beds and Accessories       $5,134,812        1%     47%        $2.08    $0.01
           �       (2xy@Tl@@nerltand&pphi3           $14,249,157        1%     37%        $6.72    $0.03
           �       Wheelchairs and Accessories        $9,353,138        3%     38%        $0.92    $0,02
           �       Other DME                          $3,194,710        1%     45%        $1.18    $0.01
           �       Walkers                            $1,357,581        1%     57%        $0.85    $0.00
           �       Canes and Crutches                     $63,412       o%     70%        $0.43    $0.00
           �       Commodes                           $1,092,060        1%     57%        $0.74    $0.00
           �       SeaiZPatient LIji’s                  $348,261        o%     26%        $1.26    $0.00
           �       Pressure Pads, Cushions, and       $2, 635)374       O%     28%        $0.68    $0.01
                   Mattresses

    Braces, Trusses, Artl>cial Limbs                 $62,389,553        3%     20%        $2.73    $0.13
           �     Bracesand Trusses                   $44,900,809        3%     18%        $2.13    $0.09
           �     ArtificialLhnbs                     $17,488,744        o%     37%        $8.46    $0.04

    Co@, Splintk, and Fracture Reduction              $8,774,695         1%    33%        $1.79     $0.02
    Devices

    Surgical Dressings                               $22,268,560         1%     18%       $3.28     $0.05
           �      PrhnarySurgicalDressings              $129,032         o%    2.2%       $0.95     $0.00
           �      Gauze,Bandages,and Tape             $8,104,184         1%     24%       $1.73     $0.02
           �      Adhesiveand Remover                $14,035,343         1%     18%       $2.27     $0.03

    Prosthetic Devices and Related                  $643,367,331        20%    27%        $5.41     $1.35
    Supplies
           �      EnteralNutritwn Equipment         $367,573,163         5%    34%       $15.57     $0.77
                  and Supplies
           �      ParenteralNutrition                 $8,451,450         o%     37%      $63.30     $0.02
                  Equipmentand Supplies
           �      Medical and SurgicalSupplies      $198,465,794        14%     26%       $2.25     $0.42
           �      Cathetersand RelatedItems          $55,626,395         7%     27%       $1.28     $0.12
           �      T~Dev&mand&ns                         $350,453         o%     37%       $0.26     $0.00
           �      Ostomyand RelatedItems              $7,888,119         1%     18%       $1.65     $0.02




                                                   A-3

                                                                 Stays   Bed day Charge
                                                       Stays   Also With ---------------------
                                    Estimatad 1992      With   Medicare With Based on
Type of Service                       Chuw             &z@Q      XF      Service ~Stavg

AMBVZANCE                             $2509046,021      19%     24%        $2.10    $0.52

    Basic L@e Support Transport       $105,045,057      15%     25%        $1.11    $0.22
    Advanced Ll~e Support              $97,274,119      10%     23%        $1.60    $0.20
    Non-emergency Transport            $40,065,844       6%     32%        $0.99    $0.08
    Oxygen and Medical Supplies         $7,661,001       6%     22%        $0.19    $0.02

CHIROPRACTIC      SERVICES                  $155,033     o%     15%        $0.35    $0.00

DRUGS/4ND     BIOLOGICAL               $17,879,871       5%     30%        $0.60    $0.04
KKIO!N&HE41WGSERKKESAWSU#?LY            $4,449,496       1%     15%        $0.44    $0.01

REXL4BILITATION      THERAPY          $513,823,746      10%     29%        $8.99    $1.08

    Physical                          $225,980,972       7%     30%        $6.51    $0.47
    Occupational                      $163,025,951       4%     27%        $7.39    $0.34
    Speech Therapy                    $124,816,823       3%     35%        $7.98    $0.26

RESPIRA TORY THERAPY                        $535,266     o%     21%        $1.28    $0.00

MENTAL HEAL THSERWCES                  $55,919,308       5%     22%        $1.71    $0.12

PODL4T~C     SERVICES                  $99,051,759      35%     18%        $0.42    $0.21

    Routine Foot Care                  $15,622,802       9%      17%       $0.23    $0.03

DENTM     SERVICES                           $19,968     o%       o%       $2.34     $0.00

MISCELLANEOUS        (OUTPATIENT)      $45,077,461       8%      28%       $0.92     $0.09

CARRIER SPECIFIC      CODES            $24,290,380       4%      28%       $1.01     $0.05
OTHER                                   $4,198,310       3%      20%       $0.25     $0.01




                                     A-4

                                                APPENDIX                                 B
         ASSISTANT                 SECRETARY                   FOR PLANNING AND EVALUATION
                                                              COMMENTS




                                                      JN’l1615sfj



w]:               Claudia Cooky
                  Executive secrctsuy

FR031.             .Acting As&ant Secretaryfor
                    Planning      ad     Evaluation

SliBJECT:	        hnd       Comments Rcgardiig 010 Drafi ~eporu On Medicare Paytn@s                        f~
                  Services Provided to Nursing Honw y’


III our ~wIIcr   response      to tbs   thma   OIG    rapom    on Medicare   pSyaWIS&S fir mmiag home
rcsidcms. hd c~prcssed
                     conccmIhatthempollscouldh
                                             ekmeml                                yleadtothedueivnthat
Mtxliuv Pm B paytncats should not be made ou bcblfof _    homercskkmawlUmw
uwukldiscussthisCOncun   ~ *      k     duri~ a _      * QICteon ~         12,
1995. A>a Icsuhof this&UX&OCI   ~AspE          ~ OIG~~      _       f-  ME
conummsarco@cd regarding    ritethree01c3reportseadtfed“PartB &mica inNmaiag
I[otncs- ,\n (Nerview.““DurableMedicalEFI@MM Paymentsin NuminsHome4”a
““htcrd MatrAm Pqnnants ie Nweiag Fkmes”.
Eatcml     XuII*ts Pqmeats ia Nttrsiug                   Ilomes




                                                                                                    - .-




                                                                      B-1

,n a musing home priymentrate. ASa rewdt,we are ~~e             to id~ti$ whichMedieam Part B
DME    poyrncnts arc mde      for routine nu~ing h~c       -S   (i.e., ~ices that should be included
in a nursing home paymerurate) and which are not- Further, while we understand currerrt law
limils Part 13DME to persons who are residing in their “homc~ it is not clear when a nursing
home resident (i.e., in non-h-t A covered stay) is permanenfly residing in such a facility, and,
thus, is at home in the fkility, v~us a ~idmt tit is -VJng sho~-~              UC and intends tO
rt-t~ home. ‘~0 e~~c      ~~ ~nefici~i~    ~ ~~t ~~pfi~ly            de~ed nded     cov~c,    a
mdicy prohibiting Part B llh.fE payments to all nursing home resid~~ wotdd have to ~c
 hat Pan B DME payments ~ for ro~ne or core n-h-                    ~iccs    md that t~ ~ no
.ong-term, permanent nursing home residents for whom tbe nursing home has, in fiiet, bemme
their home. We do not biieve that thCSCarc accurate ~qio~               Further, we are eoncernd
that denying Medicare Part B DMF?payments to nursing home ~id~ts could have a negalivc
“[fWt on their quality of care. Therefore, we bei.ieve,at Ieast in the interim the Department
should pre.wnncthat nursinghome residentsin a non-PartA covered SNF stay are rcsidmg in
thek “home” and permit Pat B DME pnyrmmtson behalf of such residents in need of these
suppfies. We recommend the (33G study this issue and recommend a ea&gtxizition of
equiprncmroutinely covered in wwsinghome payment ratesand Dlbfj3not routinely inchxied in
such rates. A review of State Medicaid nursing My    payment methods may provide some
insight into this issue.

 Finally, we recommend that the conclusion of this reportclearly indicate that Part B DME
payments made within a week of discharge for ~ nursiog home resident (regad~s of PYer)
who is c]igibic for Part B are appropriateto f~ili~  disehargaplanning.
                                                       1
                                                                    1


Part B Sewices in Nursing Homes                        I
We recommend inchding          in the FJxund    secti?a a d~      “ n of rhe chmmstances under
which Medicare Part B payments on behalf of nursing home residents are approprh% k
ditlicuhies   in   idcnrifykg when such payments are ~-priatq
                                                         and the variable impact that
proposalsto iimit Medhre Part B paymemswill @vc ondifFcrentnursing home residents (i.e..
those in a Part A covered SNF stay, those tio arem% d ~  who ~ * eWblc for
Me&caid) and on State and Federal govemrnen@ I

We undermnd that the OIG intends to underkke ~ study of State Medi~d n-      -V
payment rates and methods. Wc agree that such a study k -in     Q* to ~dcm~      *M
dup!icate payments have been made (Lc, Medka.re and Me&aid both have paid) and when
Medicaid cost sharing is inappropriate.




                                                 B-2

                                       HEALTH CARE FINANCING              ADMINISTRATION
                                                             coh’mImrrs

           *,Swct,   *,+
    .+++

:’                         DEPARTMENTOFHEALTH&HUMANSERVICES
:                                                                                             Health Care Financing Administration
1
3      ~
 “%+
    %,m
     >
                                                                                              The Admlntstrator
                                                                                              Washington, D.C.    20201




                     DATE           OEC151995

                     TO           June Gibbs Brown
                                  Inspector General

                     FROM         Bruce C. Vladeck
                                  Administrator

                     SUBJECT      Office of Inspector General Draft Report “Part B Services in Nursing
                                  Homes, An Overview: (OEI-06-92-O0865)


                     We reviewed the above-referenced report that describes the Medicare Part B services
                     provided to nursing home residents and identifies known or potential program
                     vul.nerabiiities. The report contains no recommendations.

                     Various Health Care Financing Administration (HCFA) work groups have identified
                     these same vulnerabilities and are working to correct them. HCFA is currently
                     investigating payment alternatives,such as bundling nursinghome payments, to prevent
                     program fhtud and abuse. Since the inception of the Durable Medical Equipment
                     Regional Carriers in 1993, our efforts to monitor trends and take fkaud detection measures
                     have increased and become more efficient. We are also building enhanced duplicate
                     payment detection methodologies into the Medicare Transaction System.

                     HCFA is requi.@ that carriersand intermediaries selectively initiate pre-pay reviews on
                     high dollar payment areas and aberrant trends such as respiratory therapy and surgical
                     dressings. This should identi@ abuses before claims are paid.

                     There k one technical issue that should be noted. On page 5, pamgraph 2, the last
                     sentenceimpliesthat the Consumer Price Index (CPI) is derived solely fbm the general
                     medical community. In&t the CPI is based on many factors, of which the medical
                     mmmmity is but one.

                     Thank you for the opportunity to review and comment on this report. Please contact us if
                     you would like to discuss our comments further.

                                                                    B-3
                                     GLOSSARY

Artificial Limb - Replacement for a natural limb (jxothesis).

Bundling - This term refers to the payment policy of requiring institutions to bill for services
provided residents, rather than some services provided by the institution and some provided by
outside suppliers and other providers (who bill Medicare separately).

Brace - An orthopedic appliance or apparatus (orthosis), usually made of metal or leather, applied
to the body, particularly the trunk and lower extremities, to support the weight of the body, to
correct deformities, to prevent deformities, or to control involuntary movements, such as occur in
spastic conditions. In some cases bracing is needed afler remedial surgery.

Cardiac Catheterization - The insertion of a catheter into a vein or artery and guiding it into the
interior of the heart for purposes of measuring cardiac output, determining the oxygen content of
blood in the heart chambers, and evaluating the structural components of the heart.

Carriers - Part B contractors that provide administrative services, for given geographic territory,
to all beneficiaries, physicians, and various suppliers of service, e.g., lab, ambulance, and durable
medical equipment in that area that are not connected with an institutional provider; process only
claims which are paid from Medicare Part B trust finds.

Casts - A stiff dressing or casing, usually made of plaster of Paris, used to immobilize body parts.

CAT Scan - A revolutionary radiologic imaging modality that uses computer processing to
generate an image of the tissue density in a “slice” about 1 centimeter thick through the patient’s
body.

Catheter - A tubular, flexible instrument passed through body channels for withdrawal of fluids
from (or introduction of fluids into) a body cavity.

Cholecystectomy - Excision of the gallbladder.

Coinsurance - The percentage of the balance of covered medical expenses that a beneficiary must
pay after payment of the deductible. Under Medicare Part B, the beneficiary pays coinsurance of
20 percent of allowed charges. See Copayment, Deductible.

Colonoscopy - Endoscopic examination of the colon, either transabdominally through laparotomy,
or transanally by means of a colonoscope.

Common Working File (CWF) - A pre-payment claims validation and Medicare Part AlPart B
benefit coordination system which uses localized data bases maintained by a host contractor; the
host contractor provides Medicare contractors within a geographic area (referred to as sector) with
beneficiary entitlement and eligibility data.

Contractor - Private health insurers, State, and public or private organizations which process
Medicare claims and make payments to providers of services and to beneficiaries.

Copayment - The sum of coinsurance and deductibles. Alternatively, a fixed dollar amount per
service that is the responsibility of the beneficiary. See Coinsurance, Deductible.

Current Procedural Terminology (CPT) - The coding system for physicians’ services developed
by the American Medical Association; basis of the HCPCS coding system for physicians’ services.
See Coding, HCFA Common Procedures Coding System.




                                             Glossary   -1
Customary Charge - The amount physicians or suppliers usually bill patients for furnishing
particular services or supplies.

Customary, Prevailing, and Reasonable (CPR) - One method used for reimbursement of
services which typically limit reimbursements for services to the lowest of the provider’s actual
charge, the provider’s customary charge for comparable services, or the prevailing charge in the
area.

Cystoscopy - Examination of the bladder by means of a cystoscope, a hollow metal tube that is
introduced into the urinary meatus and passed through the urethra and into the bladder. At the end
of the cystoscope is an electric bulb that illuminates the bladder interior. By means of special lens
and mirrors the bladder mucosa is examined for inflammation, calculi, or tumors.

Deductible - A specified amount of covered medical expenses that a beneficiary must pay before
receiving benefits. In 1992, Medicare Part B had an annual deductible of $100.

DMERCS (Durable Medical Equipment Regional Carriers) -In June 1992, HCFA issued a
final rule designating four DMERCS to process all claims for DME, prosthetics, orthotics, and
supplies. Effective October 1993, DMERCS replaced nearly 40 area carriers which had previously
processed DME claims.

Diagnosis-Related Group (DRG) - The prospective payment system established using one price
for each DRG based on diagnosis and other characteristics. System used to classi& patients into
clinically coherent and homogeneous groups that use similar resources. Prices are established in
advance for the coming year, and hospitals are paid these prices regardless of the costs they
actually incur.

Discharge - The termination of a period of inpatient SNF or the formal release of the inpatient by
the hospital.

Dressing - Any of various materials used for covering and protecting a wound. A pressure
dressing is used for maintaining constant pressure, as in the control of bleeding. A protective
dressing is applied to shield a part from injury or from septic infection.

Durable Medical Equipment (DME) - Medicare-covered items such as oxygen equipment,
wheelchairs, and other medically necessary equipment prescribed by a doctor for a patient’s in-
home use.

Electrocardiogram - The record produced by Electrocardiography, a tracing representing the
heart’s electrical action derived by amplification of the minutely small electrical impulses normally
generated by the heart.

End Stage Renal Disease @SRD) - Individuals who have chronic kidney disease requiring renal
dialysis or a kidney transplant are considered to have end stage renal disease. To qualifJ for
Medicare coverage, such individuals must be filly or currently insured under social security or the
railroad retirement system or be the dependent of an insured person. Eligibility for Medicare
coverage begins the third month after the month in which a course of renal dialysis begins.

Echography - Ultrasonography, the use of ultrasound as a diagnostic aid. Ultrasound waves are
directed at the tissues and a record is made, as on an oscilloscope, of the waves reflected back
through the tissues, which indicate interfaces of different acoustic densities and thus, differentiate
between solid and cystic structures.

Endoscopy - Visual examination of interior structures of the body with an endoscope.

Enteral - Within, by way of, or pertaining to the small intestine.




                                              Glossa?y   -2
Evaluation and Management Service - A nontechnical service provided by most physicians for
the purpose of diagnosing and treating diseases and counseling and evaluating patients.

Fee for Service - A system of paying physicians for individual medical services rendered, as
opposed to paying them salaries or cavitation payments. The CPR payment system and the
Medicare Fee Schedule are examples of fee for service payment methods. See Customary,
Prevailing, and Reasonable; Fee Schedules.

Fee Schedules - A predetermined flat maximum payment amount for individual procedure codes
within a type of service. States may develop Medicaid fee schedules or adopt Medicare fee
schedules.

Global Service - A package of clinically related services treated as a unit for purposes of billing,
coding, or payment.

HCFA Common Procedure Coding System (HCPCS) - A coding system based on CPT, but
supplemented with additional codes; required for coding by Medicare carriers. See Current
Procedural Terminology.

HCFA Data Center (HDC) - A large, centralized, and complex data processing environment
where state-of-the-art technology is being used, including computer hardware, operating systems,
and data communications networks; maintains databases on the various contractor report items and
uses that information to generate subsequent reports for HCFA and DHHS managers’ use.

Home Health Agency (HHA) - A public or private agency that specializes in giving skilled
nursing services and other therapeutic services, such as physical therapy, in your home; Medicare
will pay for such services provided certain conditions are met.

Home Health Services - Home health services are services and items furnished in patients’ homes
under the care of physicians. These services are firnished by home health agencies or by others
under arrangements made by home health agencies. Services are furnished under a plan
established and periodically reviewed by a physician. The services include part-time or
intermittent skilled nursing care; physical, occupational, or speech therapy; medical social services;
medical supplies and appliances (other than drugs and biological); home health aid services; and
services of interns and residents.

Hospice - A program operated by a public agency or private organization which engages primarily
in providing pain relief, symptom management, and supportive services for terminally ill people
and their families.

ICD-9-CM - International Classification of Diseases, 9th Revision, Clinical Modification. A
statistical coding classification system used to measure the incidence of disease, injury, arid illness.

Imaging - The production of diagnostic images.

Intermediaries - Contractors that perform Medicare administrative services for institutional
providers, i.e., hospitals, SNFS,HI-Ms, and hospices. See Home Health Agency, Hospice, Skilled
Nursing Facility.

Laryngoscopy - The direct visual examination of the larynx with a laryngoscope.

Limiting Charge - The maximum amount that a nonparticipating physician is permitted to charge
for a service; a limit on balance billing. Starting in 1993, the limiting charge will be a flat
percentage of the Medicare Fee Schedule amount paid to nonparticipating physicians.




                                              Glossay   -3
Major Diagnostic Categories (MDCS) - A classification system which groups the 467 DRGs into

23 categories based on body systems (e.g., nervous system, respiratory system, etc.) and disease

origin. See Diagnostic-Related Group.


Medicaid - A health care program cooperatively administered by Federal and State governments to

provide medical assistance to eligible needy individuals.


Medical Review (MR) - A contractor activity performed as part of the claims processing function

to determine the medical necessity of services provided to beneficiaries.


Medicare Economic Index (MEI) -An index that tracks changes over time in physician practice

costs and general earnings levels. From 1975 through 1991, increases in prevailing charge screens

were limited to increases in the MEI.


Medicare Fee Schedule - The resource-based fee schedule currently used by Medicare to pay for

physicians’ services.


Occupational Therapy - Services designed to restore self-care, work, and leisure skills to

patients/clients who have specific performance incapacities or deficits that reduce their abilities to

cope with the tasks of everyday living.


Oncology - The sum of knowledge regarding tumors; the study of tumors and cancer.


Ostomy - General term for an operation in which an artificial opening is formed, as in colostomy,

ureterostomy, etc.


Other Practitioners’ Services - Health care services of licensed practitioners other than

physicians and dentists.


Orthopedic - Pertaining to the correction of deformities of the musculoskeletal system; pertaining

to orthopedics.


Outpatient Hospital Services - Outpatient hospital services are preventive, diagnostic,

therapeutic, rehabilitative, or palliative services that are fhrnished to outpatients under the direction

of a physician or dentist by an institution that is licensed or formally approved as a hospital by an

officially designated authority for State standard-setting and meets the requirements for

participation in Medicare as a hospital.


Paid Amount - The portion of a submitted charge that is actually paid by both third-party payers
and the insured, including copayments and balance bills. See Submitted Charge.

Parenteral - Not through the alimentary canal, e.g., by subcutaneous, intramuscular, intrasternal,
or intravenous injection.

Part A of Medicare - The hospital insurance portion of Medicare; established by section 1811 of
title XVIII of the Social Security Act of 1965, as amended; covers inpatient hospital care, skilled
nursing facility care, some home health agency services, and hospice care.

Part B of Medicare - The supplementary or “doctors” insurance portion of Medicare; established
by section 1831 of title XVIII of the Social Security Act of 1965, as amended; covers services of
physicians/other suppliers, outpatient care, medical equipment and supplies, and other medical
services not covered by the hospital insurance part of Medicare.

Periodic Interim Payment (PIP) System - A system used by intermediaries to pay providers, in
which estimated Medicare reimbursement for the year is divided into equal, regularly spaced
payment amounts; enables a provider to manage its cash flow more easily.




                                               Glossary   -4
Physical Therapy - The examination, treatment, and instruction of persons in order to detect,
assess, prevent, correct, alleviate, and limit physical disability, bodily malfunction, and pain from
injury, disease, and any other bodily and mental conditions.

Physician Services - Services furnished by, or under the direction of a licensed doctor of medicine
or osteopathy in the State where the services are performed. Physician services may be provided
in the physician’s office, the recipient’s home, a hospital, or a nursing facility.

Podiatry - The specialized field dealing with the study and care of the foot, including its anatomy,
pathology, medical and surgical treatment, etc.

Premium - An amount paid periodically to purchase medical insurance benefits; for Medicare Part
B services in 1992, beneficiaries paid a premium of $31.80 per month.

Principal Diagnosis - The condition established after study to be chiefly responsible for
occasioning the admission of the patient to the hospital for care.

Professional Component - The part of a relative value or fee that presents the cost of a physician’s
interpretation of a diagnostic test or treatment planning for a therapeutic procedure. See Technical
Component.

Qualified Medicare Beneficiaries (QMBs) - QMBs are elderly or disabled persons whose
incomes are at or below specified percentages of the Federal poverty level.

Radiation Therapy - The treatment of disease by ionizing radiation. The purpose of radiation
therapy is to deliver an optimal dose of either particulate or electromagnetic radiation to a
particular area of the body with minimal damage to normal tissues.

Recipient - An individual who has been determined to be eligible for Medicaid and who has used
medical services covered under Medicaid.

Relative Value Scale (RVS) -An index that assigns weights to each medical service; the weights
represent the relative amount to be paid for each service. The RVS used in the development of the
Medicare Fee Schedule consists of three cost components: Malpractice Expense, Medicare Fee
Schedule, and Physician Work/Practice Expense.
Relative Work Value (RWlo -An assigned value that reflects the average work of a physician of
average efficiency relative to an arbitrary standard. See Relative Value Scale.

Retrospective Cost-Based Reimbursement - A method of payment for hospitals/SNFs based on
the “reasonable costs” incurred for providing covered services to beneficiaries in the preceding
year(s).

Severity of Illness Index - A measure to reflect the relative level of loss of fi.mction and mortality
normally caused by a particular illness.

Sigmoidoscopy - Direct examination of the interior of the sigmoid colon.

Speech Therapy - Therapy by a professional trained to identi~, assess, and rehabilitate persons
with speech or language disorders such as articulation, language, voice, or stuttering problems.
Splints - A rigid or flexible appliance for fixation of displaced or movable parts.

State Buy-In - This is the term given to the process by which a State provides supplementary
medical insurance and/or hospital insurance coverage for its needy, eligible persons by paying their
Medicare premiums through an agreement with the Federal Government.



                                              Glossary-5


   .—
Stress Test - A technique for evaluating circulatory response to physical stress produced by
exercise. The procedure involves continuous electrocardiographic monitoring during physical
exercise, the objective being to increase the intensity of physical exertion until a target heart rate is
reached or signs and symptoms of cardiac ischemia appear.

Submitted Charge - The actual charge submitted to the patient or a payer. See Paid Amount.

Supplementary Medical Insurance Program (SMI) - See Part B (of Medicare).

Supplier - A provider of health care services, other than a practitioner, that is permitted to bill
under Medicare Part B. Suppliers include independent laboratories, durable medical equipment
providers, ambulance services, orthotists, prosthetists, and portable x-ray providers.

Technical Component - The part of a relative value or fee for a diagnostic test or therapeutic
procedure that represents the costs of performing the service, excluding the physician’s
interpretation or treatment planning. See Professional Component.

Title XVIII of Social Security Act - Passed by Congress in 1965, and subsequently amended;
provides statutory authority for the Medicare program. Both section 1816 (Part A) and section
1842 (Part B), provide for the “use” of “public agencies or private organizations” for the
administration of benefits on behalf of the Secretary.

Title XIX - The Medicaid program.

Tracheotomy - Creation of an opening into the trachea through the neck, with insertion of an
indwelling tube to facilitate passage of air or evacuation of secretions.

Transcutaneous/Neuromuscular         Electrical Nerve Stimulation (TENS) - A procedure in which
mild electrical stimulation is applied by electrodes in contact with the skin over a painful area. The
stimulation interferes with the transmission of pain signals and helps to suppress the sensation of
pain in the area.

Transurethral Resection (TURP) - Resection of the prostate by means of an instrument passed
through the urethra.

Truss - An elastic, canvas, or metallic device for retaining a reduced hernia within the abdominal
cavity.

Upcode -To bill for a service that is paid more than the service actually provided.

Urinalysis - Analysis of the urine as an aid in the diagnosis. Many types of tests are used in
analyzing the urine in order to determine whether it contains abnormal substances indicative of
disease.




                                              Glossa~   -6
                           OPERATION RESTORE TRUST
                              AND NURSING HOMES


On May 3, 1995, President Clinton announced a new anti-fraud initiative undertaken by the

Department of Health and Human Services. Led by the Office of Inspector General in

partnership with the Health Care Financing Administration and the Administration on Aging,

this project utilizes the expertise of many Federal, State, and private sector

personnel. They will direct their combined energies to crack down on Medicare and Medicaid

fraud, waste, and abuse initially associated with home health agencies, nursing homes,

hospices, and durable medical equipment suppliers. They will work closely with the

Department of Justice and an intergovernmental team comprised of other Federal and State

personnel.


In addition to identifying and penalizing those who defraud the government, the project is

designed to alert the public and industry to the fraud schemes or vulnerable areas in policy.

To aid in this endeavor, the Offke of Evaluation and Inspections will work within the Office

of the Inspector General to perform its primary mission of conducting evaluations that provide

timely, usefi.d, and reliable information and advice to the pertinent decision makers involved

in the demonstration. To this end, the following reports on nursing homes have been

completed:


   Medicare Services Provided to Residents of Skilled Nursing Facilities (OEI-06-02-00863)

   Medicare Payments for Nonprofessional   Services in Skilled Nursing Facilities (OEI-06-92-00864)

   Payment for Durable Medical Equipment Billed During Skilled Nursing Facility Stays (OEI-06-92-
   00860)

   Part B Services in Nursing Homes -An Overview (OEI-06-92-O0865)
   Enteral Nutrient Payments in Nursing Homes (OEI-06-92-00861)

   Durable Medical Equipment Payments in Nursing Homes (OEI-06-92-00862)


Ongoing evaluations are being conducted related to Medicare payments for residents of
nursing homes for such services as mental health therapy, wound care, imaging, hospice,
ambulance transportation, and nail debridement. Also under review are duplicate payments
between Medicare and Medicaid for nursing home services.
